                                U.S. Department of Justice
                                United States Attorney
                                Middle District of Georgia




                       Post Office Box 1702                  478-752-3511
                       Macon, Georgia 31202                  FAX 478-621-2605
FOR IMMEDIATE RELEASE                     CONTACT: PAMELA LIGHTSEY
April 16, 2004




                         PRESS RELEASE
MACON: Maxwell Wood, United States Attorney for the Middle District of Georgia;
John W. Long, Special Agent in Charge, U.S. Department of Transportation Office of
Inspector General; Thomas E. Marlowe, Georgia Division Director for the Federal Motor
Carrier Safety Administration; and Ronald K. Johnson, Director of Driver's Services for
the Georgia Department of Motor Vehicle Safety; announce the conviction today in
Federal District Court in Macon of THOMAS R. DUKE, owner of TTT TRUCK
DRIVER'S SCHOOL, INC., located at 131 Debbie Court in Macon, Georgia. TTT
TRUCK DRIVER'S SCHOOL, INC., the corporation, was also convicted.

DUKE and TTT were each convicted of Conspiracy, multiple counts of Making False
Statements in a Matter within the jurisdiction of the Department of Transportation and
the Federal Motor Carrier Safety Administration, and multiple counts of Wire Fraud,
following a week-long trial. Evidence presented at trial showed that DUKE and TTT
conspired with Terence E. Haley to falsify the skills tests of 623 TTT students. The
fraudulent skills test forms were thereafter submitted by the students to the State of
Georgia to obtain commercial drivers licenses to which the students were not entitled.
Evidence at trial also showed that DUKE and TTT committed fraud in relation to student
loans obtained for TTT students. Terence E. Haley had earlier pled guilty to a charge of
Conspiracy, testified at the trial of this matter, and is awaiting sentencing.

Department of Transportation Inspector General Kenneth Mead stated, "We have
identified fraud in the commercial driver's license program as one of the nation's most
serious safety problems. The conviction of Thomas R. Duke for these criminal violations
should send a strong signal that we will not tolerate inadequate training and false testing
of commercial truck drivers. We must make every effort to ensure that our nation's truck
drivers are properly trained and tested before they are allowed to operate commercial
vehicles on our highways. This will help us to protect the traveling public."

DUKE faces a maximum sentence of 5 years imprisonment and a $250,000 fine on each
of the forty counts of conviction. Assistant United States Attorney Paul C. McCommon
prosecuted the case for the government. For additional information, contact U.S.
Attorney Maxwell Wood or Assistant U.S. Attorney Paul McCommon through Pamela
Lightsey at 478-621-2603
